HHS/OIG-Audit--"Review of Medicare Payments for Services Provided to Incarcerated Beneficiaries, (A-04-00-05568)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Payments for Services Provided to Incarcerated Beneficiaries," (A-04-00-05568)
April 25, 2001
Complete
Text of Report is available in PDF format (1.33 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Generally, Medicare payments cannot be made for medical services to Medicare beneficiaries who are incarcerated. This
final report points out, however, that the Medicare program is extremely vulnerable to such payments because the Health
Care Financing Administration (HCFA) does not identify Medicare beneficiaries who are in prison, making it virtually impossible
for Medicare contractors to prevent improper payments. To date we have identified $32 million in potentially improper Medicare
fee-for-service payments for calendar years 1997 through 1999 by Medicare contractors to providers on behalf of 7,438 incarcerated
beneficiaries. To minimize the risk of improper payments we recommended that HCFA take procedural and systematic measures
to obtain data from the Social Security Administration (SSA) which identifies incarcerated SSA beneficiaries, and design
and implement system controls in Medicare's enrollment data base and common working file to alert contractors when a Medicare
claim is submitted for services to an incarcerated beneficiary. Officials of the Health Care Financing Administration agreed
with the intent of our recommendations, but hesitate to fully commit to implementing systems controls at this time because
they believe further study is necessary to determine the most appropriate source of incarcerated beneficiary data for their
use.